TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Interim Results of the 2009 Filing Season



                                          March 30, 2009

                              Reference Number: 2009-40-058




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                    DEPARTMENT OF THE TREASURY
                                                          WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                    March 30, 2009


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report - Interim Results of the 2009 Filing Season
                                 (Audit # 200940012)

 This report presents selected information related to the Internal Revenue Service (IRS)
 2009 Filing Season1 results provided as of either March 6 or March 7, 2009.2 As part of our
 Fiscal Year 2009 Annual Audit Plan, we are conducting a number of ongoing audits that are
 related to specific issues in this report. We will continue to provide IRS management with
 information on any areas of immediate concern throughout our audit process.

 Impact on the Taxpayer
 The filing season is critical for the IRS because it is the time when most individuals file their
 income tax returns and contact the IRS if they have questions about specific tax laws or filing
 procedures. During the 2009 Filing Season, the IRS expects to receive nearly 140 million
 individual income tax returns. We did not identify any significant problems with the IRS’
 processing of individual income tax returns during the 2009 Filing Season through March 6,
 2009. While we have some concerns that are discussed in this report, in general, the IRS
 accurately processed the returns it had received and issued refunds in a timely manner.




 1
     See Appendix IV for a glossary of terms.
 2
     Results were provided as of either March 6 or March 7, depending on the date the IRS reported the respective data.
                               Interim Results of the 2009 Filing Season




Synopsis
One of the challenges the IRS confronts each year in processing tax returns is the
implementation of new tax law changes. The 2009 Filing Season presented additional challenges
for the IRS due to the enactment of two significant new tax laws.
    •   The Housing and Economic Recovery Act of 2008,3 which includes a refundable
        First-Time Homebuyer Credit and an additional standard deduction for real property
        taxes.
    •   The Emergency Economic Stabilization Act of 2008,4 which includes the Tax Extenders
        and Alternative Minimum Tax Relief Act of 20085 and the Heartland Disaster Tax Relief
        Act of 2008.6
As of March 6, 2009, we had not identified any significant problems with the IRS’ processing of
individual income tax returns during the 2009 Filing
Season. Electronic filing has increased by 6.1 percent
compared to the same period in 2008. The largest part of        As of March 6, 2009, the IRS
this increase is taxpayers electronically filing from their       received approximately
home computers, which increased by 19.9 percent.                 63.9 million tax returns—
Although the Free File Program was expanded last year              51.8 million e-filed and
                                                                  12.1 million paper filed.
making 70 percent of all taxpayers (i.e., 98 million
taxpayers) able to use this service, volumes have
decreased by 30.2 percent from this same period in 2008.
The Recovery Rebate Credit (RRC) is available to eligible taxpayers who did not receive an
economic stimulus payment or who are entitled to an additional payment. Of the 56.9 million
tax returns processed as of March 6, 2009, a total of 11.4 million included a claim for the RRC.
Claims for the RRC totaled approximately $7.1 billion. Our analysis showed that the IRS
correctly computed the RRC on 99.6 percent of tax returns processed.7
However, taxpayers are having difficulty determining whether they qualify to receive the RRC
and, if they qualify, the amount of their credit. The IRS computed RRC payments totaling
almost $1.1 billion on more than 2.8 million eligible tax returns on which the taxpayer did not
claim the RRC. In response to the growing Error Resolution System function inventory, the IRS
hired seasonal employees earlier, is offering overtime, and has initiated both programming and


3
  Pub. L. No. 110-289, 122 Stat. 2654.
4
  Pub. L. No. 110-343, 122 Stat. 3765.
5
  Pub. L. No. 110-343, 122 Stat 3861.
6
  Pub. L. No. 110-343, 122 Stat. 3912.
7
  We considered the IRS computation of the RRC correct when it matched our calculation of the RRC. Our match
was performed subsequent to IRS error processing.
                                                                                                               2
                                 Interim Results of the 2009 Filing Season




procedural changes. To date, these efforts have enabled the IRS to resolve work in the Error
Resolution System function in a timely manner.
In addition, a provision in the Housing and Economic Recovery Act of 2008 provides first-time
homebuyers with a credit. As of March 6, 2009, we identified 567,685 returns claiming more
than $3.9 billion in the First-Time Homebuyer Credit. For 38,158 of the 567,685 claims, we
identified that the taxpayer may have had ownership8 in a personal residence within the last
3 years, which disqualifies the First-Time Homebuyer Credit claim. The recent passage of the
American Recovery and Reinvestment Act of 20099 is presenting additional challenges for the
IRS in processing tax returns claiming the First-Time Homebuyer Credit. The maximum amount
of credit to which a taxpayer is entitled depends on the year in which the home was purchased
($7,500 for purchases in 2008 and $8,000 for purchases in 2009). The IRS is implementing
processes to identify the date of purchase on the First-Time Homebuyer Credit (Form 5405).
Finally, as of March 6, 2009, the IRS had identified 67,780 returns with $421,487,654 being
claimed in fraudulent refunds and prevented the issuance of $376,987,935 (89 percent) of the
fraudulent refunds being claimed. This represents a 15 percent decrease in the number of returns
identified as of this time last year.
The latest release of the Customer Account Data Engine (CADE), Release 4, was developed to
deliver new functions and capabilities in two subreleases. The IRS deployed CADE Release 4.1
in July 2008, and Release 4.2 was deployed in January 2009. The new capabilities provided by
CADE Release 4 include the processing of surviving spouse, decedent, and prior year returns;
accepting payments made with a filed tax return which pay the balance due in full; processing
extensions of time to file a tax return; and issuing some notices to taxpayers. These additional
capabilities are expected to significantly increase the volume of returns posted to the CADE. As
of the week ending March 6, 2009, about 18.8 million tax returns had been posted to the CADE,
an increase of 48 percent from the same time last year.
Taxpayer Assistance Centers are walk-in sites where taxpayers can obtain answers to both
account and tax law questions, as well as receive assistance in preparing their tax returns. The
IRS plans to assist more than 7.1 million taxpayers in Fiscal Year 2009. As of February 28,
2009, the Taxpayer Assistance Centers had served 2.4 million taxpayers since October 1, 2008—
1.3 million of those taxpayers for the 2009 Filing Season. As of January 31, 2009, the IRS had
reported a 67 percent accuracy rate for tax law questions and an 82 percent accuracy rate for tax
account questions.
Some performance measures and service indicators for the Toll-Free Telephone Program are
currently lower than in the 2008 Filing Season because of increased demand related to prior year

8
  Our determination was based on whether the taxpayer claimed deductions for real estate taxes, mortgage interest,
points, residential energy credit, mortgage interest credit and/or the District of Columbia First-Time Homebuyer
Credit within the last 3 years.
9
  Pub. L. 111-5, 123 Stat. 115.
                                                                                                                     3
                                 Interim Results of the 2009 Filing Season




Adjusted Gross Income and the RRC.10 Through March 7, 2009, the IRS had answered about
108 percent of the planned 9.4 million assistor-answered calls. The IRS’ 58.8 percent Level of
Service is 20.7 percentage points lower than the actual 2008 Filing Season Level of Service of
79.5 percent. For January 1 through March 7, 2009, the IRS had planned to provide a
77.4 percent Level of Service. In addition, the IRS had planned to answer 17.6 million
automated calls, but had answered 15 million automated calls as of March 7, 2009.
The IRS is taking approximately 259 seconds longer (79.2 percent) to answer taxpayers’ calls
than in the 2008 Filing Season. The Average Speed of Answer is currently at 586 seconds
(9.8 minutes) compared to a planned 420 seconds (7.0 minutes). The number of blocked calls
increased more than seven times over that in the 2008 Filing Season. As of March 7, 2009,
blocked calls totaled 3.9 million compared to 461,098 blocked calls for the same period in the
2008 Filing Season.
The Volunteer Program plays an increasingly important role in the IRS’ efforts to improve
taxpayer service and facilitate participation in the tax system. As of March 7, 2009, we had
22 tax returns prepared with a 64 percent accuracy rate, which is approaching the 69 percent
accuracy rate we reported for the 2008 Filing Season. We observed that volunteers did not
always use the tools and information available when preparing tax returns. We will report our
final results in August 2009.
IRS.gov (the public IRS Internet web site) continues to be one of the most visited Internet web
sites in the world, especially during the filing seasons. As of the week ending March 7, 2009, the
IRS had reported a 28.7 percent increase in the number of visits to IRS.gov over the same period
in the 2008 Filing Season.

Recommendation
This report was prepared to provide interim information only. Therefore, we made no
recommendations in the report. However, key IRS management officials reviewed it prior to
issuance and agreed with the facts and conclusions presented.
Copies of this report are also being sent to the IRS managers affected by the report information.
Please contact me at (202) 622-6510 if you have questions or Michael E. McKenney, Assistant
Inspector General for Audit (Returns Processing and Account Services), at (202) 622-5916.




10
 Toll-free telephone assistance data presented in this report were taken from available IRS reports through
March 7, 2009, and comparable periods for prior years.
                                                                                                              4
                                         Interim Results of the 2009 Filing Season




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Processing Tax Returns.................................................................................Page 4
          Detecting and Stopping Erroneous Refunds in a Timely Manner ................Page 9
          Providing Customer Service .........................................................................Page 10

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 17
          Appendix II – Major Contributors to This Report ........................................Page 20
          Appendix III – Report Distribution List .......................................................Page 21
          Appendix IV – Glossary of Terms................................................................Page 22
                       Interim Results of the 2009 Filing Season




                             Abbreviations

AGI                   Adjusted Gross Income
CADE                  Customer Account Data Engine
CI                    Criminal Investigation
e-file(d); e-filing   Electronically file(d); electronic filing
ERS                   Error Resolution System
FTHC                  First-Time Homebuyer Credit
IRS                   Internal Revenue Service
QRP                   Questionable Refund Program
RRC                   Recovery Rebate Credit
TY                    Tax Year
                                   Interim Results of the 2009 Filing Season




                                             Background

The filing season1 is critical for the Internal Revenue Service (IRS) because it is the time when
most individuals file their income tax returns and contact the IRS if they have questions about
specific tax laws or filing procedures. During the 2009 Filing Season, the IRS expects to receive
nearly 140 million individual income tax returns. It is still projected that electronically filed
(e-filed) returns will continue to experience growth. The total e-file volumes are projected to
                                          increase by about 5.5 percent (4.8 million) in 2009.
                                          Online e-filed returns are expected to increase by
     Two significant new tax laws         11.6 percent.
     were enacted that impact the
         2009 Filing Season.           One of the challenges the IRS confronts each year in
                                       processing tax returns is the implementation of new tax
                                       law changes. Before the filing season begins, the IRS
must identify new tax law and administrative changes and, where possible, revise the various tax
forms, instructions, and publications. It must also reprogram its computer systems to ensure that
tax returns are accurately processed. The 2009 Filing Season presented additional challenges for
the IRS due to the enactment of two significant new tax laws.
    •   The Housing and Economic Recovery Act of 2008,2 which includes a refundable
        First-Time Homebuyer Credit (FTHC) and an additional standard deduction for real
        property taxes.
    •   The Emergency Economic Stabilization Act of 2008,3 which includes the Tax Extenders
        and Alternative Minimum Tax Relief Act of 20084 and the Heartland Disaster Tax Relief
        Act of 2008.5
In addition, much like the 2008 Filing Season, the IRS is responsible for processing tax returns
that include the Recovery Rebate Credit (RRC). Last filing season, the Economic Stimulus Act
of 20086 provided economic stimulus payments to millions of taxpayers. During the 2009 Filing
Season, the RRC will be available to eligible taxpayers who did not receive an economic
stimulus payment or who are entitled to an additional payment based on information on their Tax
Year (TY) 2008 individual income tax return.


1
  See Appendix IV for a glossary of terms.
2
  Pub. L. No. 110-289, 122 Stat. 2654.
3
  Pub. L. No. 110-343, 122 Stat. 3765.
4
  Pub. L. No. 110-343, 122 Stat 3861.
5
  Pub. L. No. 110-343, 122 Stat. 3912.
6
  Pub. L. No. 110-185, 122 Stat. 613.
                                                                                          Page 1
                                    Interim Results of the 2009 Filing Season




The law provides a tax credit to first time homebuyers and an additional
deduction for State and local real property taxes
On July 30, 2008, the Housing and Economic Recovery Act of 2008 introduced the new FTHC.
The credit is similar to an interest-free loan, in that it must be repaid over a 15-year period. It
allows a taxpayer who is a first-time homebuyer a refundable tax credit equal to the lesser of
$7,500 ($3,750 for Married Filing Separate) or 10 percent of the purchase price of a principal
residence. The IRS has developed a new form for eligible taxpayers to calculate and claim this
credit, First-Time Homebuyer Credit (Form 5405). This form requires the taxpayer to provide
the address of the home qualifying for the credit, along with the date purchased.
In addition, the law also provides taxpayers who have paid State and local real property taxes,
but are unable to itemize, a deduction of up to $500 dollars for single filers and $1,000 for
married filers as an addition to their standard deduction. This provision was set to expire at the
end of 2008; however, the Emergency Economic Stabilization Act of 2008 extended the
provision through 2009.
On February 17, 2009, the American Recovery and Reinvestment Act of 20097 was signed into
law and includes several changes regarding the FTHC. These changes include increasing the
maximum credit from $7,500 to $8,000. Under this law, taxpayers who are first-time
homebuyers can receive a refundable tax credit equal to the lesser of $8,000 ($4,000 for Married
Filing Separate) or 10 percent of the purchase price of a principal residence. Other changes
include extending the credit for homes purchased through November 30, 2009, and eliminating
the requirement to pay the credit back unless the purchased home is no longer the main home
within the first 36 months of the purchase.

The law also provides Alternative Minimum Tax relief, tax extenders for expiring
tax law provisions, and relief to victims of natural disasters
In 2008, Congress passed legislation for a massive financial bailout and tax relief package. The
Emergency Economic Stabilization Act of 2008, which includes the Tax Extenders and
Alternative Minimum Tax Relief Act of 2008 and the Heartland Disaster Tax Relief Act of 2008,
was enacted on October 3, 2008. This financial bailout and tax relief package includes
116 different tax provisions. It extends several expiring tax relief provisions and prevents an
estimated 26 million middle-income taxpayers from being subject to the Alternative Minimum
Tax by providing higher exemption amounts for 2008. This new law also extends through 2009
other provisions such as the State and local general sales tax deduction, the qualified tuition
deduction, the additional standard deduction for real property taxes, and the teacher expense
deduction. Taxpayers who were victims of disasters in the Midwest will also receive tax relief,
and there is a new tax relief package for victims of all Federally declared disasters occurring
after December 31, 2007, and before January 1, 2010.

7
    Pub. L. 111-5, 123 Stat. 115.
                                                                                             Page 2
                                    Interim Results of the 2009 Filing Season




Recovery Rebate Credit
The Economic Stimulus Act of 2008 was enacted on February 13, 2008, to energize the national
economy. As of December 31, 2008, the Department of the Treasury had issued more than
119 million economic stimulus payments totaling more than $96 billion. Most individuals
received the economic stimulus payment in advance of filing their TY 2008 tax return based on
information from their TY 2007 tax return. Individuals who qualify for a larger payment as a
result of changes between their TY 2007 and TY 2008 tax returns will receive the RRC when
they file their TY 2008 tax return.
Taxpayers compute the RRC and include the amount of the credit on their tax return. Any credit
due will be included in the taxpayer’s refund or will reduce the amount of tax owed. The IRS
will systemically compute the RRC for every return as part of its credit validation process. It
will also compute the credit for anyone who is eligible and does not claim the credit or who
requests the IRS to compute the credit for them.8 Most conditions that would make a taxpayer
ineligible for the RRC (e.g., filing a non-resident tax return, income below the qualifying level,
etc.) will be handled systemically through math error processing. For tax returns with these
conditions, the credit is systemically disallowed and a notice is sent to the taxpayer explaining
the reason.
These interim 2009 Filing Season results are being presented as of either March 6 or March 7,
2009.9 This review was performed at the Wage and Investment Division Headquarters in
Atlanta, Georgia; the Submission Processing function offices in Lanham, Maryland, and
Cincinnati, Ohio; the Criminal Investigation (CI) Division office in Washington, D.C.; and the
Submission Processing Sites in Austin, Texas; Atlanta, Georgia; Cincinnati, Ohio; Kansas City,
Kansas; and Ogden, Utah. We will provide more detailed objectives and scope in our final
report on the 2008 Filing Season that will be issued later this year along with other reports
covering many filing season-related topics. We conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objective. Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




8
  The IRS identifies taxpayers requesting assistance in computing the RRC when the credit field is left blank or zero
is entered on the tax return.
9
  Results were provided as of either March 6 or March 7, depending on the date the IRS reported the respective data.
                                                                                                             Page 3
                                     Interim Results of the 2009 Filing Season




                                          Results of Review

 Processing Tax Returns
 As of March 6, 2009, we had not identified any significant problems with the IRS’ processing of
 individual income tax returns during the 2009 Filing Season. While we have some concerns that
 are discussed in this report, in general, the IRS accurately processed the returns it had received
 and issued refunds in a timely manner. The IRS estimates that it will process 46.9 million paper
 and 93 million e-filed tax returns and provide customer service assistance via telephone, web
 site, and face-to-face to millions of taxpayers. As of March 6, 2009, the IRS had received
 approximately 63.9 million returns. Of those, approximately 51.8 million were e-filed (an
 increase of 6.1 percent from this time in 2008) and approximately 12.1 million were filed on
 paper (a decrease of 17.3 percent from this time in 2008). In addition, more than 54.6 million
 refunds totaling approximately $153.6 billion had been issued. Figure 1 presents summary tax
 return filing statistics.
                          Figure 1: Comparative Filing Season Statistics
                                                             2008 Actual         2009 Actual
 Cumulative Filing Season Data                                                                     % Change
                                                             As of March 8       As of March 6
 Individual Income Tax Returns
 Total Returns Received (in thousands)                          63,383             63,851            0.7%
     Paper Returns Received (in thousands)                      14,588             12,058           -17.3%
     Electronic Returns Received (in thousands)                 48,795             51,793            6.1%
       Practitioner Prepared                                    33,419             33,349            -0.2%
       Home Computer                                            15,377             18,444            19.9%
       Free File (also included in Home Computer total)          2,770              1,935           -30.2%
       Fillable Forms                                              N/A                140             NA
 Refunds
  Total Number Issued (in thousands)                            53,176             54,638            2.7%
  Total $ (in millions)                                      $136,976           $153,579             12.1%
  Average $                                                     $2,576             $2,811            9.1%
  Total Number of Direct Deposits (in thousands)                41,665             44,744            7.4%
  Total Direct Deposit $ (in millions)                       $117,808           $135,613             15.1%
Source: IRS 2009 Filing Season Weekly Reports. Totals may not compute to those presented due to rounding.

                                                                                                        Page 4
                                       Interim Results of the 2009 Filing Season




However, taxpayer confusion when determining their eligibility for the RRC as well as the IRS’
decision to compute the RRC for taxpayers is resulting in significant increases in tax returns
going to the Error Resolution System (ERS) function. As of March 6, 2009, the IRS has
identified approximately 5.4 million10 tax returns with RRC errors.

E-filing continues to increase, but use of Free File is down
The IRS began receiving e-filed tax returns January 16, 2009. As of March 6, 2009, e-filing had
increased by 6.1 percent compared to the same period in 2008. The largest increase includes
taxpayers who e-file from their home computers, which increased by 19.9 percent over last year.
The IRS has seen a steady growth in the e-filing of income tax returns over the past several
years. In 2003, of the approximately 130.1 million individual income tax returns received by the
IRS, 40.7 percent were e-filed. In 2008, the percentage of e-filed returns increased to 58 percent
of the total individual income tax returns received.
The Free File Program was expanded last year and offers 20 different software options that can
assist taxpayers with an Adjusted Gross Income (AGI) of $56,000 or less in 2008 to e-file their
Federal tax returns for free. That means 70 percent of
all taxpayers (i.e., 98 million) can take advantage of tax
software that will help them complete their returns           The Free File Program was
through the Free File Program. Three companies are          expanded   last year to provide
                                                            most individual filers with free
offering their products in Spanish.                         e-file; however, taxpayers are
In addition, a new option this year, Free File                    not taking advantage of this
                                                                           filing option.
Fillable Forms, opens up the Free File Program to nearly
everyone, even those with incomes exceeding $56,000.
These Fillable Forms allow taxpayers to fill out and file their tax forms and
e-file them with the IRS at no cost. These forms are only available through the Free File
Program link on IRS.gov (the public IRS Internet web site), and some taxpayers may not benefit
from this option because they are unaware the Fillable Forms are available since there is not a
direct link from IRS.gov. This option does not include the step-by-step probe process, but it
does allow taxpayers to enter their tax data, perform basic math calculations, sign their tax
returns electronically, print their returns for recordkeeping, and e-file their returns. This option
may be right for those who are familiar with the tax law, know what forms they want to use, and
do not need assistance.
However, taxpayers are not taking advantage of this filing option. The Free File Program
volumes have decreased by 30.2 percent from this time in 2008. IRS officials believe there are a
number of reasons for the decreased volumes, such as a later start to the filing season this year,
the migration of taxpayers to other free offers in the marketplace, and the elimination of e-filing
fees by some software providers.

10
     This volume is from an IRS report. Our electronic analysis of data files could only confirm 4.8 million returns.
                                                                                                                Page 5
                                   Interim Results of the 2009 Filing Season




ERS function inventory has significantly increased because of taxpayer
confusion when determining their eligibility for the RRC
Taxpayers are having difficulty determining whether they qualify to receive the RRC and, if they
qualify, the amount of their credit. The IRS had estimated 2.2 million individual e-file tax
returns would be forwarded to the ERS function through June 2009 for correction. However, as
of March 6, 2009, the IRS has already received more than 6.3 million e-filed tax returns in the
ERS function. This represents 12 percent of e-filed tax returns. The filing of paper returns
usually peaks later in the tax season. The IRS estimated that 9.9 million individual, paper-filed
tax returns would be forwarded to the ERS function for correction and has received 3.1 million
as of March 6, 2009.
The most common error being made by taxpayers and tax preparers is the incorrect computation
of the RRC. These errors account for approximately 17 percent (approximately 1.9 million tax
returns) of the total returns processed with an RRC claim. In addition to the increased ERS
function inventory, below are some other indicators of the difficulty taxpayers are facing in
computing the RRC. Results are as of March 6, 2009.
     •   The IRS rejected 778,174 e-file tax returns resulting from an error in the taxpayer
         computing the RRC. This represents 7 percent of the total e-file rejects. The most
         common reason is because the taxpayer had already received the maximum economic
         stimulus payment.
     •   The IRS issued approximately 4.9 million math error notices. This is a 1,415 percent
         increase over this time last year. The most common reasons include taxpayers receiving
         a notice because the IRS computed the RRC for them or taxpayers making an error when
         they attempted to compute the credit.
In response to the growing ERS function inventory, the IRS has hired seasonal employees
earlier, is offering overtime, and has initiated both programming and procedural changes. To
date, these efforts have enabled the IRS to resolve work in the ERS function in a timely manner.
We will continue to monitor IRS efforts to reduce inventory in the ERS function throughout the
filing season.

The RRC was correctly computed on the majority of returns claiming the credit
Of the 56.9 million tax returns processed as of March 6, 2009,11 a total of 11.4 million included a
claim for the RRC. Claims for the RRC totaled approximately $7.1 billion. The IRS also
computed RRC payments totaling almost $1.1 billion on more than 2.8 million eligible tax
returns on which the taxpayer did not claim the RRC. Our analysis showed that the IRS


11
  Volumes may differ slightly from official IRS reports. We counted from returns ready to post to the master file
rather than from returns going into validation programs to test for readiness to post.
                                                                                                            Page 6
                                    Interim Results of the 2009 Filing Season




correctly computed the RRC on 99.6 percent of tax returns processed.12 The IRS has
immediately initiated actions to address errors in the RRC calculation we brought to
management’s attention. The errors we identified were resulting in the issuance of erroneous
RRC payments or individuals not receiving the RRC they are entitled to. As of March 6, 2009,
we have identified 27,473 taxpayers who did not receive $11 million in RRC payments to which
they were entitled.

Recent changes to legislation are presenting challenges for administering the
FTHC
Congress allocated $13.6 billion for the FTHC to encourage an estimated 2 million first-time
homebuyers into purchasing homes to help stem the decline in the housing market. As of
March 6, 2009, we identified 567,685 returns claiming more than $3.9 billion in the FTHC. The
law defines a “first-time homebuyer” as any individual (and spouse, if married) who had no
ownership interest in a principal residence during the 3-year period prior to the purchase of the
home to which the credit applies. For 38,158 of the 567,685 claims, we identified that the
taxpayer may have had ownership13 in a personal residence within the last 3 years, which
disqualifies the FTHC claim. We currently have a separate audit assessing the effectiveness of
IRS efforts to identify potentially erroneous/fraudulent claims for the FTHC subsequent to IRS
receipt of tax returns as well as efforts to recover the erroneous FTHC refunds.14
We found that information provided on the Form 5405 could be used to verify certain eligibility
requirements, but these data will not be captured. Also, the IRS has not requested that the
taxpayer attach some form of documentation to the tax return to verify eligibility before the
credit is allowed. The IRS has developed programming that rejects e-filed tax returns or
forwards paper-filed tax returns to the ERS function in an attempt to ensure the accuracy of
claims for the FTHC. In addition, the IRS noted that the Examination function will audit tax
returns with a FTHC claim on all Questionable Refund Program (QRP) referral cases from the
CI Division. To date, the CI Division has referred approximately 273 cases to the Examination
function that included an FTHC claim. The IRS is also considering a discretionary audit
program to specifically evaluate compliance with the 3-year rule15 for the credit and would also
consider the other eligibility criteria.
The recent passage of the American Recovery and Reinvestment Act of 2009 is presenting
additional challenges for IRS processing of tax returns claiming the FTHC. The maximum


12
   We considered the IRS computation of the RRC correct when it matched our calculation of the RRC.
Our match was performed subsequent to IRS error processing.
13
   Our determination is based on whether the taxpayer claimed deductions for real estate taxes, mortgage interest,
points, residential energy credit, mortgage interest credit, and/or the District of Columbia FTHC within the last
3 years.
14
   First-Time Homebuyer Credit (Erroneous Claims) (Audit Number 200940033).
15
   If the home is sold within 3 years, the credit must be repaid.
                                                                                                             Page 7
                               Interim Results of the 2009 Filing Season




amount of credit to which a taxpayer is entitled depends on the year in which the home was
purchased. First-time homebuyers who purchased homes in 2008 can claim up to $7,500
(repayment is required), whereas those who purchase homes in 2009 can claim up to $8,000
(repayment is not required). The IRS’ current processes reject FTHC claims in excess of $7,500.
To ensure FTHC claims for 2009 purchases are not improperly rejected, the IRS has decided to
process them separately. To identify which Forms 5405 need the separate processing, the IRS is
manually reviewing each paper-filed return for Forms 5405 with 2009 purchase dates. The IRS
is implementing programming to identify the date of purchase on Forms 5405 that are e-filed.
We will continue to monitor IRS actions to develop processes to ensure the accuracy of FTHC
claims.

Increase in the use of split refunds
                                          Beginning in 2007, individual taxpayers could file a
                                          Direct Deposit of Refund to More Than One Account
        Use of split refunds has
      increased 88.7 percent over         (Form 8888) to elect to have their Federal income tax
        the previous time period          refunds split and electronically deposited into up to three
            last filing season.           accounts (e.g., checking, savings, or Individual Retirement
                                          Arrangement). In addition, the accounts could be with up
                                          to three different United States financial institutions,
including banks, brokerage firms, or credit unions. The majority of taxpayers are choosing to
have their refunds directly deposited to their checking or savings accounts (82 percent of refunds
issued through March 6, 2009, were direct deposits). While the number of taxpayers choosing to
split their refunds into 2 or 3 different accounts is higher than last year (253,509 compared to
134,376), it still represents less than 1 percent of all direct deposits through March 6, 2009. The
253,509 taxpayers had refunds totaling $1.04 billion, or an average of $4,107 per refund. We
will continue to monitor and analyze this throughout the 2009 Filing Season.

Customer Account Data Engine (CADE) Release 4 provides additional
functionality
As of March 6, 2009, the CADE posted 18.8 million returns, an increase of 48 percent over the
number of tax returns the CADE posted during the same time last year. The CADE provides for
faster tax refund processing with direct deposits issued 1 business day to 5 business days faster
and paper tax refund checks issued 4 business days to 13 business days faster when compared to
non-CADE processed tax returns. CADE Release 4.1 was deployed in July 2008 with
functionality to process surviving spouse, decedent, and prior year returns. This release also
included capabilities to issue notices to taxpayers informing them of their eligibility to receive
Additional Child Tax Credit or that their tax refund will be issued to them in paper versus
electronically.
The latest CADE release, Release 4.2, was delivered in January 2009 at the start of the filing
season. Release 4.2 includes functionality to accept taxpayer payments made in full with a filed
                                                                                              Page 8
                                  Interim Results of the 2009 Filing Season




tax return and process the taxpayer’s extensions of time to file a tax return along with any
attached payments. This release also includes the capability to issue notices to taxpayers,
informing those taxpayers with qualifying children of their eligibility to receive potential Earned
Income Tax Credit. These additional capabilities are expected to significantly increase the
volume of returns posted to the CADE from the approximately 30.6 million returns posted
during Calendar Year 2008.

Detecting and Stopping Erroneous Refunds in a Timely Manner
As of March 6, 2009, the IRS had identified 67,780 returns with $421,487,654 being claimed in
fraudulent refunds and prevented the issuance of $376,987,935 (89 percent) of the fraudulent
refunds being claimed. This represents a 15 percent decrease in the number of returns identified
as of this period last processing year.
The CI Division QRP is a nationwide, multi-functional program designed to detect and stop
fraudulent claims for refunds on income tax returns. Responsibility for coordinating the QRP
resides with the CI Division’s 10 Fraud Detection Centers (the Centers), which are located at
each of the 10 IRS campuses where individual tax returns are filed and processed. Figure 2
shows the number of fraudulent returns identified by the QRP for Processing Years 2003 through
2008, as well as the refund amounts that were claimed and stopped.
           Figure 2: Fraudulent Returns and Refunds Identified and Stopped
                    by the CI Division (Processing Years 2003–2008)
                     Number of                                        Amount of
                     Fraudulent              Number of                Fraudulent            Amount of
     Processing    Refund Returns        Fraudulent Refund              Refunds             Fraudulent
        Year          Identified          Returns Stopped              Identified        Refunds Stopped
       2003              96,953                   73,400              $349,515,144           $266,423,786
       2004             118,075                   82,099              $440,773,403           $309,961,55416
       2005             132,945                 103,537               $515,548,186           $412,184,202
       2006              52,255                   35,523              $271,180,566           $188,715,519
       2007             240,406                 189,915             $1,467,762,110         $1,203,795,853
      2008              380,656                    306,128             $1,959,992,377      $1,683,912,973
 Source: CI Division fraudulent return statistics for Processing Years 2003–2008.




16
  To facilitate comparisons, we eliminated a Processing Year 2004 refund scheme from the amounts shown as
Number of Fraudulent Refunds Returns Identified and Number of Fraudulent Refunds Returns Stopped. This
scheme included 2 returns claiming $1.8 billion.
                                                                                                       Page 9
                                   Interim Results of the 2009 Filing Season




Through the Electronic Fraud Detection System, each individual income tax refund return
receives a data-mining score based on the characteristics of the return and other data. A private
vendor developed the data-mining score, which is validated and updated before each processing
year based on experience and new information. The higher the data-mining score, the greater the
probability that the tax return might be fraudulent.
The Centers screen returns identified by the Electronic Fraud Detection System and determine
each return’s fraud potential. If a return is selected by the Center and included in its workload,
the refund is held until employers or third parties are contacted to verify wage information on the
return. If the Centers do not complete the verification process within a certain time period, the
held refund is automatically released. In general, if the Centers conclude that a return contains
false information (e.g., false or inflated wages), the return is referred to either the Accounts
Management organization or the Examination functions17 for resolution. Returns with refundable
credits, such as the Earned Income Tax Credit, and returns for which the refunds were issued
must be sent to the Wage and Investment Division Examination function because the law
requires issuance of a statutory notice of deficiency whenever an assessment is made to increase
the tax on an account.

Providing Customer Service
Taxpayers have several options to choose from when they need assistance from the IRS,
including telephone assistance through the toll-free telephone lines, face-to-face assistance at the
Taxpayer Assistance Centers and Volunteer Program sites, and self-assistance through the IRS’
web site, IRS.gov.

Face-to-face assistance at the Taxpayer Assistance Centers
The Taxpayer Assistance Centers are walk-in sites where taxpayers can obtain answers to both
account and tax law questions, as well as receive assistance in preparing their tax returns. The
IRS plans to assist more than 7.1 million taxpayers in Fiscal Year 2009. Between
October 1, 2008, and February 28, 2009, the Taxpayer Assistance Centers had served 2.4 million
taxpayers, which includes 1.3 million taxpayers for the 2009 Filing Season. According to the
IRS, 77.8 percent of the taxpayers who waited to speak to assistors at the 225 Taxpayer
Assistance Centers that track wait time waited fewer than 30 minutes.
Figure 3 shows the number of contacts by product line at the Taxpayer Assistance Centers for
Fiscal Years 2006 through 2009.

17
  According to the referral procedures, fraudulent refund returns are forwarded to either the Wage and Investment
Division Examination function or the Small Business/Self-Employed Division Examination function. The majority
of fraudulent refund returns are forwarded to the Examination function in the Wage and Investment Division. For
purposes of this report, we will use the generic “Examination functions,” unless we need to refer to a specific
Division for clarification.
                                                                                                         Page 10
                                   Interim Results of the 2009 Filing Season




                        Figure 3: Contacts for Fiscal Years 2006–200918
                                         (in millions)

                                                                    Fiscal Year
          Contacts/Product Lines
                                                                                             2009
                                                 2006            2007          2008
                                                                                          Projections
          Tax Accounts Contacts                   2.7             3.1           3.2            3.5
          Forms Contacts                          1.4             1.3           1.0             .9
                           19
          Other Contacts                          1.3             1.4           1.5            1.7
          Tax Law Contacts                          .7             .8            .6             .5
          Tax Returns Prepared                      .4             .5            .6             .5

          Totals                                  6.5             7.1           6.9            7.1
        Source: IRS management information reports.

In Fiscal Year 2007, the IRS implemented a standardized quality measurement system to
measure the quality of taxpayer service at its Taxpayer Assistance Centers. Prior to this, the IRS
had used our audit results to measure the accuracy of assistors’ responses to tax law questions.
Our results showed an accuracy rate of 51 percent in Fiscal Year 2002. The IRS reported an
83 percent accuracy rate in Fiscal Year 2007 and a 69 percent accuracy rate for Fiscal Year 2008.
As of January 31, 2009, the IRS had reported a 67 percent accuracy rate for tax law questions
and an 82 percent accuracy rate for tax account questions.20

Toll-free telephone assistance
Each filing season, approximately 15 million taxpayers contact the IRS by calling the various
Customer Account Services function21 toll-free telephone assistance lines seeking help in




18
   The Fiscal Year 2007 data are not comparable to prior year data. In Fiscal Year 2007, the IRS changed its method
of counting Taxpayer Assistance Center contacts by capturing the number of services provided rather than the
number of taxpayers assisted. In Fiscal Year 2008, the IRS reverted to capturing the number of taxpayers assisted.
19
   Other Contacts include assisting taxpayers with the U.S. Departing Alien Income Tax Statement (Form 2063),
date stamping tax returns brought in by taxpayers, helping taxpayers with general information such as addresses and
directions to other IRS offices or other Federal Government agencies, and responding to correspondence.
20
   Reported accuracy rates are unweighted and not based on a statistically valid sample of tax law and tax account
questions asked during the filing season.
21
   The Director, Customer Account Services, Wage and Investment Division, manages tax law and account
telephone calls through the Joint Operations Center.
                                                                                                         Page 11
                                     Interim Results of the 2009 Filing Season




understanding the tax law and/or meeting their tax obligations.22 For the 2009 Filing Season, the
IRS expects increased demand because taxpayers are calling:
     •   To obtain the amount of their TY 2007 AGI. Starting in the latter part of January 2009
         and continuing through March 2009, the IRS experienced heavy AGI call demand. These
         calls were caused by the IRS discontinuing the use of U.S. Individual Income Tax
         Declaration for an IRS e-file Online Return (Form 8453-OL) for TY 2008. Now that the
         Form is obsolete, taxpayers choosing to electronically prepare and file their tax returns
         are required to provide their prior year AGI and use a self-selected five-digit personal
         identification number as their signature.
     •   In response to math error notices issued by the IRS relating to the RRC.23 The IRS is
         issuing math error notices because taxpayers are claiming an RRC amount that does not
         match the amount calculated by the IRS.
The IRS initially developed a projected AGI call demand of 1.8 million calls, but later reduced
the demand projection to 800,000 calls. As of March 2, 2009, the IRS implemented and staffed a
new application to monitor AGI call demand. The total AGI call demand as of March 7, 2009,
was 3.3 million calls. Prior to the implementation of the new AGI application, the individual
taxpayer account application absorbed the AGI call demand. As of March 7, 2009, the
individual taxpayer account application24 exceeded planned services provided by 32.8 percent
(rounded). The actual services25 provided were 5.3 million compared to the planned services of
4 million. In addition, there were 2.8 million courtesy disconnects on the individual taxpayer
account application, and the Average Speed of Answer was 743 seconds (12.4 minutes).
There are fewer calls than anticipated to the Rebate Hotline26
Both English and Spanish applications of the Rebate Hot Line are below planned services.
However, the Average Speed of Answer for the English rebate application is 688 seconds
(11.5 minutes).


22
   Toll-free telephone assistance data presented in this report were taken from available IRS reports through
March 7, 2009, and comparable periods for prior years.
23
   The IRS issues math error notices to taxpayers when changes made to the tax return during processing result in an
overpayment. The IRS refunds the overpayment within 6 weeks if the recipient owes no other taxes.
24
   The toll-free telephone assistance lines are subdivided into categories called applications, each of which is staffed
with a group of assistors who have received specialized training to assist taxpayers with specific tax issues.
Application 20 is the individual taxpayer account application.
25
   The IRS defines a service as an issue or multiple issues handled by a single assistor. In general, one service
equates to one or more taxpayer questions answered by one assistor. For example, one call might result in the IRS
counting three services provided for one taxpayer: (1) asking a tax law question and requesting a form (two
questions equals one service by one tax law assistor); (2) asking the status of an Employer Identification Number
(one service by a business assistor); and (3) asking the status of the customer’s individual account (one service by an
individual account assistor).
26
   The Rebate Hotline is the telephone line dedicated to calls related to the economic stimulus payments/rebates.
                                                                                                              Page 12
                              Interim Results of the 2009 Filing Season




The IRS has reported that rebate-related inquiries have been identified on applications other than
the Rebate Hotline. For example, tests showed calls are being answered in the application
dedicated to questions about credits. The Joint Operations Center staff was unaware that this
was occurring and was under the assumption that all rebate-related calls were being handled on
the rebate applications. We informed them, and they later confirmed, that an IRS alert was
issued instructing assistors to route RRC eligibility calls to the credit application.
Because of calls inquiring about the prior year’s AGI and the RRC, some performance
measures and service indicators are currently lower than in the 2008 Filing Season
For the 2009 Filing Season (as of March 7, 2009), the IRS had answered about 108 percent of the
planned 9.4 million assistor-answered calls. Its 58 percent Level of Service is 20.7 percentage
points lower than the actual 2008 Filing Season Level of Service of 79.5 percent. For January 1
through March 7, 2009, the IRS had planned to provide a 77.4 percent Level of Service. In
addition, the IRS had planned to answer 17.6 million automated calls, but had answered
15 million automated calls as of March 7, 2009.
The IRS is taking approximately 259 seconds longer (79.2 percent) to answer taxpayers’ calls
than in the 2008 Filing Season. The Average Speed of Answer is currently at 586 seconds
(9.8 minutes) compared to a planned 420 seconds (7 minutes). The number of blocked calls
increased more than seven times over that in the 2008 Filing Season. As of March 7, 2009, the
blocked calls totaled 3.9 million compared to 461,098 blocked calls for the same period in the
2008 Filing Season.
Figure 4 presents a year-to-date comparison of select toll-free telephone system measures and
service indicators.




                                                                                          Page 13
                                    Interim Results of the 2009 Filing Season




           Figure 4: Toll-Free Performance Measures and Service Indicators
                           for the 2006–2009 Filing Seasons27

                                               2006               2007               2008               2009
                                         Through March 11   Through March 10    Through March 8    Through March 7



 Level of Service                             84.2%             82.2%             79.5%               58.8%
 Average Speed of Answer
                                               182                256               327                586
 (seconds)
 Automated Calls Answered
                                               13.0               12.3              12.4               15.0
 (millions)
 Customer Account Services
 Assistor Calls Answered                        8.7                8.5              8.5                10.1
 (millions)
 Customer Account Services
 Assistor Services Provided                    10.3               10.2              9.9                11.6
 (millions)


 Abandon Rate28                               12.5%              13.1%            16.5%               36.6%
 Average Handle Time (seconds)                 564                587                607               575
 Assistor Availability                         6.9%               6.3%             4.9%               4.7%
 Primary Abandons29 (millions)                  3.8                4.2                4.3              7.0
 Secondary Abandons (millions)                  1.1                1.5                1.9              3.4
 Total Blocked Calls (millions)                 0.6                0.3                0.5              3.9
Source: IRS Enterprise Telephone Data Warehouse. The IRS refers to the suite of 20 telephone lines to which
taxpayers can make calls as "Customer Account Services Toll-Free.”

Tax preparation assistance at Volunteer Program sites
The Volunteer Program plays an increasingly important role in the IRS’ efforts to improve
taxpayer service and facilitate participation in the tax system. It provides no-cost Federal tax
return preparation and e-filing to underserved taxpayer segments, including low-income, elderly,
disabled, and limited-English-proficient taxpayers. These taxpayers are frequently involved in
complex family situations that make it difficult to correctly understand and apply tax law.



27
   The IRS averages its measures throughout the year. It does not weight them.
28
   This is the Secondary Abandon Rate. The IRS refers to calls that disconnect after reaching the queue (on hold) as
secondary abandons.
29
   The IRS refers to calls that disconnect before reaching the queue as primary abandons.
                                                                                                             Page 14
                                Interim Results of the 2009 Filing Season




For the second year, we are including the Tax Counseling for the Elderly Program sites in our
testing of volunteer sites. We plan to visit 51 Volunteer Income Tax Assistance and Tax
Counseling for the Elderly sites to determine if taxpayers receive quality service, including
accurate preparation of their individual income tax returns. We developed scenarios designed to
test quality controls and present volunteers with a wide range of tax law topics that taxpayers
may have needed assistance with when preparing their tax returns. All scenarios require a
determination of economic stimulus payments and RRCs. In addition, one scenario addresses
retirement income.
As of March 7, 2009, we had 22 tax returns prepared with a 64 percent accuracy rate, which is
approaching the 69 percent accuracy rate we reported for the 2008 Filing Season. We observed
that volunteers did not always use the tools and information available when preparing tax
returns. We will report our final results in August 2009. Figure 5 presents comparisons of
Volunteer Program activities for the 2006 through 2009 Filing Seasons.
       Figure 5: Year-to-Date Comparisons of the 2006–2009 Filing Seasons
                              Through March 7, 2009

                                                2006          2007       2008      2009
                                               Actual        Actual     Actual    Actual

           Volunteer Return Preparation
                                                 1.2           1.3       1.5       1.5
           (in millions)
           Volunteer E-Filing                  93.8%          94.4%     96.8%     97.9%
          Source: IRS 2006 through 2009 Filing Season Weekly Reports.

The IRS has developed a new approach to measuring the quality of tax returns prepared by the
Volunteer Program by forming a Centralized Return Review Cadre. The Cadre will initiate a
statistically valid sample review of volunteer-prepared tax returns, the results of which will form
a benchmark of volunteer-prepared tax return accuracy starting with the 2009 Filing Season.
The approach requires that Cadre members at each site review randomly selected tax returns,
comparing the return information with supporting documentation, including end-of-year earning
statements and information the taxpayer provided the volunteer during the mandated intake and
screening process. We plan to monitor four of the IRS’ visits and randomly select a sample of
the tax returns reviewed by Cadre members to determine the accuracy of the tax returns and the
effectiveness of the IRS’ Centralized Return Review Cadre process.

Self-assistance through IRS.gov
IRS.gov continues to be one of the most visited Internet sites in the world, especially during the
filing seasons. As of March 7, 2009, the IRS had reported a 28.7 percent increase in the number
of visits to IRS.gov over the same period in the prior filing season. It had also reported a
57.9 percent increase in the number of taxpayers obtaining their refund information online via

                                                                                           Page 15
                                  Interim Results of the 2009 Filing Season




the “Where’s My Refund” option found on IRS.gov. Figure 6 shows the year-to-date
comparisons of various IRS.gov activity levels for the 2006 through 2009 Filing Seasons.
        Figure 6: Year-to-Date Comparisons of the 2006–2009 Filing Seasons
                         Through March 7, 2009 (in millions)
                                                                                                 % Change
                       2006 Actual        2007 Actual        2008 Actual      2009 Actual
                                                                                                 From 2008
IRS.gov Visits             76.4               81.7               91.7             116.8            28.7%
“Where’s My
                           14.6               17.9               21.4              33.5            57.9%
Refund?”
Source: IRS 2006 through 2009 Filing Season Weekly Reports. Totals may not compute to those presented due to
rounding.




                                                                                                     Page 16
                                    Interim Results of the 2009 Filing Season




                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to provide selected information related to the IRS
2009 Filing Season1 results as of either March 6 or March 7, 2009.2 To accomplish our
objective, we:
I.      Identified new tax legislation and administrative changes for the 2009 Filing Season that
        will have the greatest potential effect on individual taxpayers.
        A. Reviewed tax forms, instructions, and publications to determine whether they were
           accurately updated with the changes.
        B. Identified tax legislation that was pending before Congress and determined what
           preparations were made by the IRS and the effect on taxpayers if the legislation was
           passed.
II.     Determined the volumes of individual tax returns the IRS is expecting to receive during
        the 2009 Filing Season by obtaining and reviewing the Calendar Year Projections of
        Individual Returns by Major Processing Categories (Document 6187), Fall 2008 Update,
        produced by the IRS Office of Research.
III.    Identified volumes of paper and e-filed returns received through March 6, 2009, from the
        IRS Weekly Filing Season reports that provide a year-to-date comparison of scheduled
        return receipts to actual return receipts. They also provide a comparison to 2008 receipts
        for the same time period.
IV.     Determined the adequacy of the IRS’ planning and implementation of the Economic
        Stimulus Act of 20083 by analyzing the legislation, meeting with IRS
        executives, reviewing information on the IRS web site (IRS.gov), evaluating IRS
        computer programming, and evaluating the information provided to taxpayers related to
        the RRC.




1
  See Appendix IV for a glossary of terms.
2
  Results were provided as of either March 6 or March 7, depending on the date the IRS reported the respective data.
3
  Pub. L. No. 110-185, 122 Stat. 613.
                                                                                                          Page 17
                                  Interim Results of the 2009 Filing Season




V.      Identified volumes of TY 2008 returns with First-Time Homebuyer Credit (Form 5405)
        received through March 6, 2009, by analyzing weekly extracts of the Individual Return
        Transaction File.4
VI.     Obtained the CADE Release 4 implementation plans and identified returns processed by
        the CADE as of March 6, 2009.
VII.    Identified the interim results for the CI Division QRP.
        A. Obtained the QRP Workload Comparison Report as of March 6, 2009, to identify the
           interim QRP statistics for the 2009 Filing Season.
        B. Obtained the QRP Workload Comparison Report for Processing Year 2008 and
           reviewed a prior Treasury Inspector General for Tax Administration report5 to obtain
           QRP statistics to determine the number of erroneous refunds identified and stopped
           by the CI Division for Processing Years 2003 through 2008.
VIII.   Identified interim results for the IRS Taxpayer Assistance Center Program.
        A. Obtained from the IRS Field Assistance Office statistics on taxpayers served at the
           Taxpayer Assistance Centers.
        B. Reviewed the IRS Weekly Filing Season Report, which provides a year-to-date
           comparison of various Taxpayer Assistance Center activity levels for the 2006
           through 2009 Filing Seasons, through March 7, 2009.
IX.     Identified interim results for the IRS Toll-Free Telephone Assistance Program.6
        A. Reviewed Performance Templates and Executive Level Summary reports from the
           Enterprise Telephone Data Warehouse for results as of March 7, 2009.
        B. Reviewed information relative to the economic stimulus payment from IRS officials.
X.      Identified interim results for the Volunteer Program.7
        A. Reviewed interim results from Treasury Inspector General for Tax Administration
           visits to Volunteer Program sites. A total of 22 tax returns had been prepared as of
           March 7, 2009.



4
  To assess the reliability of computer-processed data, programmers in our Office of Information Technology
validated the data that were extracted, and we verified the appropriate documentation. Judgmental samples were
selected and reviewed to ensure that the amounts presented were supported by external sources.
5
  An Estimated $1.6 Billion in Fraudulent Refunds Was Issued During the 2006 and 2007 Filing Seasons (Reference
Number 2008-10-172, dated September 22, 2008).
6
  Toll-Free Access 2009 Filing Season (Audit Number 200940003).
7
  Volunteer Program – Filing Season 2009 (Audit Number 200940002).
                                                                                                      Page 18
                            Interim Results of the 2009 Filing Season




      B. Reviewed the IRS Weekly Filing Season Report, which provides a year-to-date
         comparison of the Volunteer Program activity levels for the 2008 and 2009 Filing
         Seasons.
XI.   Identified interim results for IRS self-assistance through IRS.gov from the IRS Weekly
      Filing Season Report, which provides a year-to-date comparison of IRS.gov activity
      levels for the 2008 and 2009 Filing Seasons.




                                                                                      Page 19
                            Interim Results of the 2009 Filing Season




                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Augusta R. Cook, Director
Scott Macfarlane, Director
Russell Martin, Director
Deann Baiza, Audit Manager
Lena Dietles, Audit Manager
Ed Gorman, Audit Manager
Paula Johnson, Audit Manager
Frank Jones, Audit Manager
Tina Parmer, Audit Manager
Wilma Figueroa, Acting Audit Manager
Jean Bell, Senior Auditor
Sharon Buford, Senior Auditor
Jack Forbus, Senior Auditor
Michael Garcia, Senior Auditor
Tracy K. Harper, Senior Auditor
John Hawkins, Senior Auditor
Sandra Hinton, Senior Auditor
Robert Howes, Senior Auditor
Kathleen Hughes, Senior Auditor
Bonnie Shanks, Senior Auditor
Beverly Tamanaha, Senior Auditor
Van Warmke, Senior Auditor
Lawrence White, Senior Auditor
Jerry Douglas, Auditor




                                                                                    Page 20
                            Interim Results of the 2009 Filing Season




                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Business Modernization Office, Wage and Investment Division SE:W:BMO
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Electronic Tax Administration and Refundable Credits, Wage and Investment Division
SE:W:ETARC
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Field Assistance, Wage and Investment Division SE:W:CAR:FA
Director, Joint Operations Center, Wage and Investment Division SE:W:CAS:JOC
Director, Stakeholder Partnership, Education, and Communications, Wage and Investment
Division SE:W:CAR:SPEC
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                     Page 21
                         Interim Results of the 2009 Filing Season




                                                                              Appendix IV

                           Glossary of Terms

Adjusted Gross Income   Adjusted Gross Income is calculated after certain adjustments
                        are made but before standard or itemized deductions and
                        personal exemptions are subtracted.
Average Speed of        Average Speed of Answer is the average number of seconds
Answer                  taxpayers waited in the queue (on hold) before receiving
                        services.
Blocked Call            A blocked call is one that cannot be connected immediately
                        because either no circuit is available at the time the call arrives
                        (i.e., the taxpayer receives a busy signal) or the system is
                        programmed to block calls from entering the queue when the
                        queue backs up beyond a defined threshold (i.e., the taxpayer
                        receives a recorded announcement to call back at a later time).
Campus                  The data processing arm of the IRS. The campuses process
                        paper and electronic submissions, correct errors, and forward
                        data to the Computing Centers for analysis and posting to
                        taxpayer accounts.
Courtesy Disconnects    The IRS issues courtesy disconnects to taxpayers when calls
                        entering the queue back up beyond a defined threshold. The
                        callers receive a recorded announcement to call back at a later
                        time.
Customer Account        The CADE consists of current and planned databases that will
Data Engine             eventually replace the IRS Master File as the official repository
                        of taxpayer account information.
Earned Income Tax       The Earned Income Tax Credit is a refundable Federal tax credit
Credit                  for low-income working individuals and families.
Electronic Fraud        The Electronic Fraud Detection System is an automated system
Detection System        used to maximize fraud detection at the time tax returns are filed
                        to eliminate the issuing of questionable refunds.
Enterprise Telephone    The Enterprise Telephone Data Warehouse is the official source
Data Warehouse          for all data related to toll-free telephone system measures and
                        indicators.

                                                                                        Page 22
                       Interim Results of the 2009 Filing Season




Error Resolution      The ERS is responsible for correcting taxpayer and return
System                preparer errors, as well as errors made during IRS processing of
                      tax returns.
Filing Season         The filing season is the period from January 1 through April 15
                      when most individual income tax returns are filed.
Fiscal Year           A fiscal year is 12 consecutive months ending on the last day of
                      any month except December. The Federal Government’s fiscal
                      year begins on October 1 and ends on September 30.
Free File Program     The Free File Program is a free Federal tax preparation and
                      electronic filing program for eligible taxpayers developed
                      through a partnership between the IRS and the Free File Alliance
                      LLC. The Alliance is a group of private-sector tax software
                      companies.
Individual Return     The Individual Return Transaction File contains data transcribed
Transaction File      from initial input of the original individual tax returns during
                      return processing.
Level of Service      Level of Service is the primary measure of service to taxpayers.
                      It is the relative success rate of taxpayers who call for services
                      on the IRS toll-free telephone lines.
Processing Year       Calendar year the return or document is processed by the IRS.
Questionable Refund   A nationwide, multi-functional program designed to detect and
Program               stop fraudulent claims for refunds on income tax returns.
Tax Year              The 12-month period for which tax is calculated. For most
                      individual taxpayers, the tax year is synonymous with the
                      calendar year.
Taxpayer Assistance   Taxpayer Assistance Centers are walk-in sites where taxpayers
Centers               can obtain answers to both account and tax law questions, as
                      well as receive assistance in preparing their tax returns.
Volunteer Program     The Volunteer Program includes the Volunteer Income Tax
                      Assistance and Tax Counseling for the Elderly Programs. The
                      Volunteer Program provides free tax assistance to persons with
                      low to moderate income (generally $40,000 and below), the
                      elderly, persons with disabilities, and persons with limited
                      English proficiency who cannot prepare their own tax returns.



                                                                                    Page 23
